womblebonddickinson.com

WOMBLE
BOND
DICKINSON

December 11, 2020

Womble Bond Dickinson (US) LLP

By Email — dbakerasupremecourt.gov
Mr. Donald Baker
Supreme Court of the United States Clerk's Office
1 First Street, NE
Washington, DC 20543

555 Fayetteville Street
Suite 1100
Raleigh, NC 27601

Re: Case No. 20-304 —
World Programming Limited v. SAS Institute Inc.

t: 919.755.2100
f 919.755.2150

Press Millen
Partner
Direct Dial: 919-755-2135
Direct Fax: 919-755-6067
E-mail: Press.Millen@wbd-us.com

Dear Mr. Baker:
Further to our recent telephone conversation and pursuant to your request, this letter will
confirm that our client in the above-referenced matter, Respondent SAS Institute Inc., is not a
publicly held corporation or other publicly held entity nor is its stock owned by any publicly held
corporation or entity.
Please let me know if you need anything further. Thanks for your attention to this matter.
Sincerely,
WOMBLE BOND DICKINSON (US) LLP

For the Firm:
Pressly M. Millen
cc:

Counsel of Record
(by email)

Womble Bond Dickinson (US) LLP is a member of Womble Bond Dickinson (International) Limited, which consists of independent and autonomous law firms
providing services in the US, the UK, and elsewhere around the world. Each Womble Bond Dickinson entity is a separate legal entity and is not responsible for the
acts or omissions of, nor can bind or obligate, another Womble Bond Dickinson entity. Womble Bond Dickinson (International) Limited does not practice law. Please
see www.womblebonddickinson.comius/leoal-notice for further details.

